Report on an International Symposium                               June 18, 2014
on Monitoring and Management in
Insecure Environments:
Applying Best Practices to Afghanistan




February 12–13, 2014 • Washington, D.C.

Co-Sponsored by:

Special Inspector General for Afghanistan Reconstruction (SIGAR)
and United States Institute of Peace (USIP)
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Contents

Acknowledgements	2

Message from the Special Inspector General for
Afghanistan Reconstruction	                                  3

Message from the United States Institute of Peace	           4

Background	5

Summary of Symposium Discussion	                             7

  Transition Poses New Challenges
  for Reconstruction	                                        7
  What We Have Learned about Management
  and Monitoring	                                            9
  Recommendations for Going Forward	                        13


Observations	16

Appendix A. Panel on “The Role of Oversight”	               17

Appendix B. Pertinent Readings	                             20

Appendix C. List of Participants	                           22




                                                                                                              June 18, 2014 | 1
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Acknowledgements

The Special Inspector General for Afghanistan Recon-
struction (SIGAR) and the United States Institute of
Peace (USIP) want to thank all of the individuals who
helped organize the symposium and those who made
time in their busy schedules to attend and participate in
the discussions.

This report describes the views, ideas, and concerns ex-
pressed by the attendees. It does not reflect consensus
or agreement among the attendees, nor does it neces-
sarily reflect the views of SIGAR or USIP.




                                                                                                              June 18, 2014 | 2
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Message from the Special Inspector General for Afghanistan Reconstruction
An important topic, not only for Afghanistan but for              the most cost-effective means for providing meaningful
other fragile countries, is the challenge of overseeing           monitoring, evaluation, and oversight of foreign as-
foreign assistance in a conflict zone. We all know how            sistance. Our objective was to share best practices and
dangerous Afghanistan can be. Every day we hear sto-              lessons learned, discuss our successes, and learn from
ries of brave soldiers, civilians, and Afghans who lose           our failures, in order to help us improve results, along
their lives in the struggle to build a better Afghanistan.        with maintaining the trust of the taxpayers, donors, and
So it comes as no surprise that due to security con-              beneficiaries who we seek to help.
cerns, significant portions of Afghanistan are already
inaccessible to civilians working for non-governmental            Countless government and private sector officials in Af-
organizations, implementing agencies, and the oversight           ghanistan are trying hard to develop alternative means
community. Sometimes these areas prove so insecure                to help protect donors’ investments. Almost everyone
that they are inaccessible even to our Afghan partners.           I talk to inside and outside of Afghanistan wants an
                                                                  opportunity to meet with their counterparts to discuss
Even though it is difficult to predict the future of the          their experiences, concerns, and ideas for the future.
U.S. presence in Afghanistan, the ability of U.S., coali-         My hope is that the symposium will help advance that
tion, and international employees to monitor, manage,             shared desire for collaboration. Congress created SI-
and oversee programs in Afghanistan will only become              GAR, in part, to help achieve this very goal. Our agency
more difficult this year and possibly for years to come.          is tasked with looking across all of the reconstruction
Significant portions of Afghanistan are already inacces-          activities in Afghanistan. By doing so, SIGAR seeks
sible to SIGAR and other U.S. civilians. These inaccessi-         to identify not only challenges, but also help propose
ble areas are outside the “oversight bubbles,” (i.e., areas       solutions. Collectively, we can help improve the perfor-
where the U.S. government has the ability to provide              mance of programs, and ultimately improve the lives of
both adequate security and rapid emergency medical                those we are trying to help. If we can develop effective
support), and these “oversight bubbles” are getting               methods for remote monitoring and management in Af-
smaller as U.S. military units are withdrawn and coali-           ghanistan, we can apply what we learn to other foreign
tion bases are closed.                                            assistance programs across the globe. That is a lasting
                                                                  impact all of us should strive to achieve.
While the “oversight bubbles” are shrinking, U.S. and
international assistance to Afghanistan is expected to
continue. Almost $14 billion of the over $100 billion
appropriated by the U.S. Congress for the reconstruc-
tion effort in Afghanistan has yet to be spent. Billions
more may be added over the next decade. Managing
and protecting these funds will be a challenge for
everyone working in Afghanistan, including SIGAR. For
this reason, we joined with the United States Institute
of Peace to invite government and non-governmental                John F. Sopko
organizations, think tanks, academia, and the military            Special Inspector General for
to participate in a symposium to examine and identify             Afghanistan Reconstruction




                                                                                                              June 18, 2014 | 3
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Message from the United States Institute of Peace
As someone who managed humanitarian and devel-                    tively. With external resources for Afghanistan shrinking
opment programs assisting Afghans in the 1980s and                during the coming years there will be a need to priori-
1990s, I saw first-hand the devastation caused by two             tize spending—rather than spending money because it
decades of war. With that perspective, I am always                is there to spend—which in itself should improve the
impressed when visiting Afghanistan by the tremen-                quality of projects being implemented. Second, I am
dous progress that has been made in rebuilding the                hopeful that the 2014 presidential elections will lead to
country since 2001. While many mistakes were made,                a legitimate new government that recognizes that it will
and achievements often fell short of expectations, it is          have to improve government performance by appointing
important not to lose sight of just how much has been             more capable key officials and curbing corruption in or-
accomplished under difficult circumstances.                       der to continue to attract diminishing donor resources.

Effective monitoring and impact assessments are critical          As the U.S. begins to reduce its footprint in Afghanistan,
to measuring success, learning from failures, and ensur-          it is important to remember that the primary objective
ing accountability for U.S. taxpayer dollars. But monitor-        of the U.S. engagement has been to ensure that Af-
ing, evaluating and determining the impact of programs            ghanistan does not once again become a safe-haven for
can be very challenging to do well, especially in insecure        transnational terrorism that threatens the United States.
operating environments. In Afghanistan, the difficult             Ultimately this will require an Afghan government that
operating environment and the huge scale of military and          can control its own territory. While considerable prog-
civilian assistance made effective oversight and assess-          ress has been made toward achieving this objective, the
ment both very important but also very challenging. The           task is not over, and will require long-term international
symposium on “Monitoring and Managing in Insecure En-             support -- albeit at more sustainable levels than those of
vironments” provided a useful forum to share lessons and          the past decade. The key findings from the symposium
best practices on how to address these challenges. While          summarized in this report should prove useful to agen-
there are different perspectives about how to do this             cies responsible for continuing to provide this support,
right, the symposium highlighted that most objectives are         as well as for those like SIGAR who are responsible for
shared, and that few are risking their lives to implement         providing oversight. We also hope that it will contribute
projects in dangerous environments like Afghanistan               to finding ways in which we can all advance our com-
with the intention of doing so inefficiently.                     mon goals more effectively.

Two factors make me hopeful that future assistance ef-
forts in Afghanistan will be more effective and account-
able. First, I think that the biggest impediment to the
effectiveness of assistance in recent years has not been
insecurity, but rather that too much money was being
spent too quickly and often with insufficient consulta-
tion with Afghans. That is to say, too much money—not             Andrew Wilder
relative to the needs in Afghanistan, but relative to the         Vice President, Center for South and Central Asia
capacity to spend that money accountably and effec-               United States Institute of Peace 




                                                                                                              June 18, 2014 | 4
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Background
Humanitarian, development, and oversight organiza-
tions in Afghanistan are finding it progressively more               Remote management: an operational response to insecurity,
difficult to access development and reconstruction                   involving the withdrawal or drastic reduction of the number of
                                                                     international and sometimes national personnel from the field.
project sites in many areas of the country due to dete-
                                                                     Remote management transfers greater program responsibility
riorating security conditions. As a result of the volatile
                                                                     to local staff, local partner organizations, or private contractors.
security environment in Afghanistan and other conflict               Projects and programs are then managed and overseen from a
areas, humanitarian and development organizations are                different location.
increasingly turning to remote management and moni-
toring approaches in order to continue providing assis-              Monitoring: an ongoing measure of the progress, quality, and
tance while safeguarding the security of their personnel.            impact of a project to determine what is and is not working well,
                                                                     so adjustments can be made along the way.
Remote management poses particular challenges to                     Source: “Monitoring and Accountability Practices for Remotely Managed Projects
                                                                     Implemented in Volatile Operating Environments.” Tearfund. 2012.
conducting effective project monitoring and oversight,
ensuring program effectiveness and accountability, and
mitigating against fraud and corruption.                           For this reason, the Office of the Special Inspector
                                                                   General for Afghanistan Reconstruction (SIGAR) and
In a recent study, humanitarian and development orga-              the United States Institute of Peace (USIP) partnered to
nizations raised the following issues and concerns with            present an international symposium on “Monitoring and
respect to the use of remote management: potential                 Management in Insecure Environments: Applying Best
deterioration in program quality; deterioration in the             Practices to Afghanistan.” The objective was to engage
potential to ensure effective and rigorous monitoring;             the U.S. agencies, international donor community, and
reduced regularity of visits and access to project imple-          think tanks involved in development and reconstruction
mentation areas; inaccuracy of project data and report-            work in Afghanistan in a focused discussion to identify
ing; limited capacity of their own and partner personnel;          and discuss past and current best practices, techniques
deterioration in technical oversight of projects, particu-         and technologies, as well as limitations and challenges,
larly those with a complex focus such as infrastructure            of sustaining effective management and monitoring in
or engineering; poor communication between country                 insecure environments.
and field offices; increased danger and risks to local or
national personnel, communities, and beneficiaries; in-            The symposium was held on February 12, 2014, at the
creased pressure and expectations (social and political)           United States Institute of Peace in Washington, DC. To
on local staff; and increased risk of the occurrence of            encourage candid discussion and the free exchange of
fraud and corruption.1                                             ideas, SIGAR and USIP adopted a policy of non-attri-
                                                                   bution for the symposium. The remarks of symposium
These are not new issues or challenges. In countries               speakers, panelists, participants, and guests (herein
throughout the world, development experts have de-                 referred to as speakers) will not be attributed to them
signed and implemented projects that provide for strong            directly or indirectly without their express permission.
monitoring and evaluation despite the challenges. Good             Videotaping and audio recording during the symposium
practices and innovative approaches to remote project              was prohibited, as was the use of social media to com-
management and monitoring need to be identified and                municate symposium proceedings.
shared in order to help ensure program quality and ac-
countability in the complex, dynamic, and fluid operat-            This report describes the symposium discussions and
ing environment of reconstruction in Afghanistan.                  the major themes that emerged from those discus-
                                                                   sions, and includes three appendices. A panel on “The
1	 “Monitoring and Accountability Practices for Remotely Managed   Role of Oversight” was scheduled for the second day
   Projects Implemented in Volatile Operating Environments.”       of the symposium but, unfortunately, was cancelled
   Tearfund. 2012.




                                                                                                                                 June 18, 2014 | 5
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




due to inclement weather. Appendix A summarizes
what the panelists intended to discuss. Appendix B is a
list of pertinent readings, and Appendix C is a list of all
the attendees.

This report will be posted on the SIGAR website at
http://www.sigar.mil/ and the USIP website at www.usip.
org. For additional information, please contact SIGAR’s
Office of Public Affairs at 703-545-5974 or sigar.penta-
gon.ccr.mbx.public-affairs@mail.mil or USIP’s Director
of Intergovernmental Affairs, Mr. Linwood Ham, at 202-
429-3870 or lham@usip.org.




                                                                                                              June 18, 2014 | 6
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Summary of Symposium Discussion
This summary describes the views, ideas, and concerns                  ability, there are increasing risks for beneficiaries
expressed by one or more of the symposium attendees.                   and for local actors to whom aid organizations turn
The summary does not reflect consensus or agreement                    in order to spread their own risk, and increasing
among the attendees, nor does it necessarily reflect the               risks of losing touch with the reality of what is hap-
views of SIGAR or USIP.                                                pening on the ground in Afghanistan.

                                                                  3.	 Afghan Priorities and Needs. While we can
Transition Poses New Challenges                                       learn from other conflicts, the international com-
for Reconstruction                                                    munity needs to be attentive to the experiences that
This section summarizes the discussions about where                   are particular to Afghanistan and to the priorities
we are today and the new realities in the post-2014                   and needs expressed by the Afghans themselves.
transition period.                                                    They want security, but not security just in terms
                                                                      of having armed forces to fight off the Taliban, as
1.	 Afghanistan Today. A dozen years ago Afghanistan                  important as that is. It is also security of tenure. It
    was a failed state. The things that the government                is the knowledge that if something happens to you,
    of Afghanistan is now able to do—the functions of                 you do not have to bribe someone to get justice. It
    the basic institutions of state, its ability to build and         is the security of confidence in the rule of law. It is
    maintain infrastructure, the human capital that it is             the security of knowing that you can safely travel
    developing and sustaining—are universally different               around the country. The Afghans also want jobs.
    from the Afghanistan that the international com-                  They want livelihoods. They want access to basic
    munity encountered in 2001 and 2002. Yet, even by                 services, such as health and education and electric
    Afghanistan’s standards, the country today is at a                power. And, they also want a sense that there is real
    point of unusual uncertainty. Afghanistan is peril-               opportunity, that the country is not just the preserve
    ously dependent upon the United States and on                     of the rich and powerful.
    the international community. International military
    forces are drawing down and no one knows what                 4.	 Role of Development Assistance. The future
    the dynamics of that are going to be on the ground.               of Afghanistan does not primarily depend upon
    The international community is dealing with a                     development assistance. The Afghans have to sort
    country that has not only suffered from decades of                out their own political problems, but development
    conflict, but is continuing to experience very high               assistance has an important role to play. A key
    levels of conflict and insecurity.                                question is how can development assistance be
                                                                      prioritized to make sure the gains that have been
2.	 Growing Insecurity. Fewer organizations are will-                 made are preserved and not wasted and to build
    ing to assume the risks associated with the growing               resilience? How can the international community
    insecurity in Afghanistan. The number of interna-                 start making a dent in the growing massive humani-
    tional organizations working in Afghanistan, as well              tarian needs of Afghanistan? What can realistically
    as the number of projects they are implementing                   be delivered and how can it realistically be over-
    and the provinces they are working in, have all                   seen, given the insecurity, given the limited access,
    declined. The transfer of risk—as aid organizations               and given the weakness of Afghanistan’s national
    withdraw or reduce international and sometimes                    systems, in particular.
    national personnel from the field, delegating greater
    program responsibility to local staff or local partner
    organizations, and oversee activities from a differ-
    ent location—has a number of consequences. In
    addition to the risks to project quality and account-




                                                                                                              June 18, 2014 | 7
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




5.	 Political, Security and Economic Transitions.2                     Afghanistan after the security transition ends this
    The United States and its partners are supporting                  year. The assistance provided by the United States,
    Afghanistan through three transitions: political, secu-            and specifically civilian development assistance,
    rity, and economic. These transitions and improved                 is essential to achieving the overall U.S. policy
    governance in Afghanistan will help put Afghanistan                objective because the assistance supports the three
    on a path toward sustainable stability. All three                  transitions that are underway and also the longer
    transitions are about Afghan ownership and Afghan                  term goal of an Afghan government that is capable
    sovereignty, and the priority must therefore be on                 of securing its own territory.
    Afghan decision making and Afghan priorities.
    •	 The political transition is in some ways the               7.	 Transition to a Smaller Civilian and Military
          most prominent right now and perhaps the                    Footprint. There has been no final decision yet
          most important. The idea of moving from                     about the size or footprint of the military or civil-
          one government to another is something that                 ian presence in Afghanistan post 2014.3 However,
          Afghanistan has never done peacefully in its                given the security transition underway and what-
          contemporary history.                                       ever the final decision is, the civilian footprint is
    •	 The security transition has largely taken place.               going to be smaller than it is today, and it is going
          The Afghan National Security Forces assumed                 to be much smaller than what we all have become
          lead responsibility for security in Afghanistan             accustomed to over the last few years. The smaller
          last year. The security transition will continue            footprint, fewer civilians in districts and provinces
          to evolve through the end of 2014 as coalition              in Afghanistan, and less co-location with coalition
          forces plan for new roles in Afghanistan. While             forces, means that one method of verifying program
          there has been no final decision yet about the              implementation will be severely diminished by the
          size of the coalition presence in Afghanistan               end of this year.
          post 2014, the military and civilian footprint is
          going to be smaller than it is today.                   8.	 Transition to Reduced Funding. It is inevitable,
    •	 The economic transition is both a short term                   notwithstanding the backlog of U.S. aid and other
          challenge as military spending draws down                   nations’ money that still has to be programmed, that
          in Afghanistan, but also a much longer term                 there is going to be a steep decline in the levels of
          challenge of shifting from a wartime economy                development assistance flowing into Afghanistan.
          to one built on sustainable and more stable                 How steep that decline will be is a function of the
          sources of growth in revenue. In the long term,             politics, including whether the bilateral security
          progress on critical issues such as addressing              agreement is signed between the United States and
          the illicit economy and becoming less depen-                the government of Afghanistan. As the resources
          dent on foreign assistance are necessary.                   shrink in the post-2014 period, the United States
                                                                      and other donors have an opportunity to clarify
6.	 U.S. Policy Objective. The United States policy                   their objectives as they are forced to prioritize how
    objective in Afghanistan is and always has been to                to spend declining amounts of development aid.
    ensure that Afghan soil is not used to launch terror-             It could be an opportunity to improve the quality
    ist attacks against the United States or our allies.              of aid and ensure that aid is better geared to the
    That is why the United States went to Afghanistan,                core needs of this unique country. Fewer resources
    that is why the United States is in Afghanistan                   may also pave the way for more accountability. As
    today, and that is why the United States needs to                 resources shrink, there will be more competition
    find a way to continue to provide assistance to
                                                                  3	 On May 27, 2014, President Obama announced that, pending
                                                                     signature of the Bilateral Security Agreement by the Afghan
                                                                     government, 9,800 U.S. troops will remain in Afghanistan after
2	 Presidential elections were held in Afghanistan on April 5,       January 2015, with most of these troops being withdrawn by the
   2014, with a second round held on June 14.                        end of 2016.




                                                                                                                  June 18, 2014 | 8
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




     for those resources. Aid organizations will need                  ity, and the institutions of government. This does
     to more clearly articulate how the money will be                  not necessarily make the oversight challenge easier,
     spent and for what purpose(s) with the understand-                because in some ways it actually makes it harder,
     ing that they are going to be held accountable for                but at a minimum it makes it different.
     achieving results.

9.	 Transition More Aid to On-Budget Assistance.                  What We Have Learned about Management
    The Afghans have been explicit that their concept             and Monitoring
    of economic transition means less dependence on               Speakers discussed a wide range of issues related to ef-
    foreign assistance and a greater say in how foreign           fective management, implementation, and monitoring of
    assistance is prioritized and delivered. Building the         development and reconstruction projects and programs,
    capacity of the Afghan government’s ministries and            as well as other lessons learned and challenges. This
    systems to enable them to deliver services to the             section summarizes those discussions.
    people is critical to the long-term viability of the
    government of Afghanistan. All the major donors               11.	 Assessing Impact, Mission Success, and Return
    are in agreement on the use of on-budget assistance                on Investment. Measuring the success and impact
    to help build capacity. This does not mean that the                of development assistance efforts in Afghanistan is
    United Sates and other partner countries should                    challenging.
    provide direct assistance regardless of the risks                  •	 Foreign assistance is an essential compo-
    involved. What it does mean is that there is a need                    nent of U.S. policy in Afghanistan because it
    for donor countries to identify the risks posed by                     supports the three transitions underway by
    working through Afghan government partners and                         building Afghanistan’s capacity to secure its
    take the steps necessary to mitigate those risks.                      own territory and provide for the rule of law,
    This is necessary for donor countries to be effective                  economic growth, and social development.
    stewards of taxpayer money, but it is also necessary                   These conditions are critical to Afghanistan’s
    as a critical component of a successful program. In                    ability to preserve the gains of the past decade,
    other words, success in building the capacity of the                   to continue improving the lives of its people,
    Afghan ministries means, at least in part, helping                     and to sustain stability.
    them to identify and redress the risks inherent in                 •	 For assistance projects, defining clear objec-
    their financial and other management systems.                          tives is critical for monitoring and evaluation.
                                                                           Success can be measured at a variety of lev-
10.	 Transition Focus of Aid to Sustainment and                            els from the project specific to the high level
     Capacity Building. In moving forward after 2014,                      national policy goals. While assistance projects
     the first and foremost priority is economic devel-                    collectively are all designed to contribute to the
     opment and growth. Afghanistan needs private                          overarching macro-level stability goal, measur-
     sector led economic development to create revenue                     ing the success of individual projects gener-
     and replace the dependency that currently exists.                     ally focuses on project specific targets and/or
     The United States has to focus on sustaining and                      broader goals such as sustainable development
     expanding the most important social gains achieved                    or government capacity building. By defini-
     over the last few years, particularly for women and                   tion it can often be difficult to articulate how
     girls, and in health and education. It has to continue                specific projects advance campaign or strategic
     to provide support for civil society and the politi-                  level goals.
     cal process, although obviously in ways that are                  •	 A paradox for those trying to evaluate success
     changing as Afghanistan asserts its sovereignty. It is                at the campaign level is that, in some cases,
     shifting away from large infrastructure development                   programs may not show a clear return on
     and looking at maintenance operations, sustainabil-                   investment and even fail if measured against




                                                                                                              June 18, 2014 | 9
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




          one set of objectives (development) but argu-                being spent correctly. Monitoring should be built
          ably succeed from the perspective of another                 into the project design from the outset. It should
          objective (stability). For example, an observer              be multi-faceted, and it has to include appropriate
          might conclude there was considerable wast-                  measures. Most of the problems seen in monitor-
          age in U.S. government funded programs, but                  ing and evaluation could have been mitigated with
          such programs were nevertheless having a very                more robust planning at the outset of a project, by
          favorable strategic impact because they were                 clearly identifying early on what the project was
          steadily and positively changing the political               trying to achieve.
          orientation of the Afghan population. While in-
          dividual organizations may consider themselves          13.	 Risk Management and Mitigation. Risks should be man-
          successful according to their own specific                   aged as an integral part of monitoring, evaluation,
          objectives and measures of performance, there                and oversight. Working in Afghanistan entails more
          often has not been a connection between the                  than just security risks. It involves multiple risks,
          organization’s work and its programs broader                 such as fiduciary, reputational, financial, procure-
          impact on stability.                                         ment, and security. The type and level of risk varies
     •	   Beyond the broadest level of preventing at-                  by actor (e.g., beneficiaries; international partners;
          tacks on the U.S. and allies, mission success in             civil society, private sector, and non-governmental
          Afghanistan has never been specifically defined.             organizations; and the Afghan government). A risk
          Depending on who is being asked the question,                management approach that is consistent with and
          the desired end state in Afghanistan would like-             rooted in the political, development, economic, and
          ly include democratization, economic growth,                 security transition objectives is needed. If the objec-
          education, improvement of border security, the               tives include capacity development, which entails
          advancement of human and especially women’s                  risks different from those if the objective is solely
          rights, the reduction of poppy cultivation, and              the provision of humanitarian or development aid,
          other goals. Donors in concert with the Afghan               a different framework is necessary for risk man-
          government viewed such goals as integral to                  agement. A risk management approach requires
          creating a self-enforcing end to hostilities. Such           building monitoring and evaluation and supervi-
          goals emanate from broad consensus among                     sion considerations into the design of projects and
          donors, development institutions, and the                    programs up front. It requires a risk mitigation plan
          Afghan government itself about how to build                  that should involve a recognized and agreed upon
          resilience and capacity in government and                    level of risk tolerance, and agreement on how to
          society. An effort to define success and evaluate            mitigate the risks. It requires spreading the risks
          the collective contribution of donor efforts to              through a portfolio of projects aimed at achieving a
          achieving it would help in better articulating the           common set of goals so that higher risk projects are
          story to overseers, Congress, practitioners, and             offset with lower risk projects within the portfolio.
          the Afghan people.                                           Inevitably some projects are going to be more risky
                                                                       than others but adopting a portfolio approach to
12.	 Project Design. Monitoring, when done properly,                   risk management, rather than a project approach,
     provides vital information to the implementers of                 provides a slightly different lens through which
     development aid and reconstruction funding. It pro-               to manage and mitigate risk. If one of the projects
     vides implementers with information that they need                within the portfolio fails, other projects within
     in order to do their work correctly, with benefits                the portfolio may still be able to help achieve the
     for both current and future project execution. The                desired objectives. Such an approach would encour-
     data gathered through the monitoring process also                 age experimentation and learning by doing, which is
     gives confidence to Afghan and donor governments,                 essential in an environment like Afghanistan. Within
     as well as to the broader public, that the money is               the international community, donors are increas-




                                                                                                             June 18, 2014 | 10
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




     ingly expecting providers to apply risk management                projects. A word of caution, however, is that at the
     practices and methodologies. Donor funding is                     local level, it is almost impossible to avoid some
     now dependent upon risk management strategies,                    conflicts. In addition, what may appear to be a con-
     greater accountability, and transparency.                         flict of interested from a Western perspective, may
                                                                       be seen by Afghans as a way of mitigating conflict.
14.	 Project Management Specialists. Project man-
     agement is vital to effective project implementa-            17.	 Contract Clauses. Investigations are hindered
     tion and monitoring, but many aid organizations                   by the lack of both restitution clauses and require-
     do not employ project managers as such. Some                      ments for declarations of subcontracting partners in
     organizations are specialists in project manage-                  the contracts employed by aid agencies. A restitu-
     ment, but other organizations tend to have more                   tion clause is important to be able to recover funds
     general program officers, who are not project man-                in the event of a breach, and a requirement for the
     agers but whose role it is to manage the projects.                subcontracting partner to provide information is
     These individuals do not necessarily have the right               necessary to support an investigation or an audit.
     expertise or skill set to manage a project to ensure              Aid organizations need to look at and strengthen
     it achieves its objectives. As a result, they often               their own contracting processes.
     fail to recognize that there are key steps in project
     management processes that contribute to success-             18.	 Technology. Modern technology has had tremen-
     ful projects. The projects that have proper project               dously positive effects on project implementation,
     management expertise are invariably much better                   management, and monitoring, and it is part of the
     in terms of quality control and standards than                    solution to the challenges created by the increas-
     those that do not.                                                ing use of remote management and monitoring in
                                                                       Afghanistan. Aid organizations are just starting to
15.	 Due Diligence. Aid organizations need to exer-                    learn how to take advantage of some of the newer
     cise greater due diligence in collecting information              technologies. While technology is unlikely to over-
     about and asking the right questions of their Afghan              come all of the challenges of working in a difficult
     partners. One aid organization has developed com-                 environment like Afghanistan, it is a tool that can be
     mon minimum standards of due diligence to apply                   used to help with oversight activities. Geospatial in-
     across the organization to see if they can raise the              formation and other forms of imagery, for example,
     level of information that they are getting from their             can be used in monitoring construction activities.
     partners. Some partners have provided very little                 Such information can help assess the progress of
     information—a phone number, name, location—but                    construction, but it cannot tell whether a beam had
     nevertheless get quite a lot of money to deliver a                a certain type of weld or the rebar was installed in a
     project. This practice has gone unchecked because                 certain way. While giving some level of confidence
     of a desire to encourage support in the regions and               that a school is being built at a specific location or
     the districts. These are business partnerships, not               a clinic is being constructed, it cannot tell whether
     friendships, and aid organizations need to push                   the correct materials were used. The information
     back when necessary and deal with their Afghan                    provided by technology needs to be coupled with
     partners on more strict business terms.                           other information observed on the ground. In addi-
                                                                       tion to its limitations, the use of modern technology
16.	 Conflicts of Interest. Aid organizations need to                  creates a tendency toward imposing more central-
     better understand some of the familial and other                  ized control of programs. Centralized control has
     linkages of the people they are working with and                  disadvantages in highly complex, insecure environ-
     employ some of the basic tools, such as declara-                  ments where it is often important to empower field
     tions of conflict of interest, to avoid or minimize               personnel who have knowledge of the local situa-
     real or perceived conflicts of interest or bias in their




                                                                                                             June 18, 2014 | 11
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




     tion to make decisions and not micromanage them                   sary to build trust. A sense of local ownership in
     from headquarters.                                                the community for any project or program is also
                                                                       very important, as is the value of local engagement
19.	 Country Nationals. Some organizations have long                   to facilitating project implementation, monitoring,
     experience in hiring Afghan nationals to help imple-              and security. Implementing organizations need to
     ment and run programs, benefiting from their much                 engage communities to determine what projects
     greater local knowledge and contextual aware-                     are needed and whether they can be effectively
     ness. Doing so not only has benefits for program                  monitored and how best to do so. They need to look
     implementation, but helps build national capacity,                to Afghan civil society organizations, local govern-
     whereby international aid organizations transfer                  ment officials, and individual Afghans, who need to
     needed knowledge and skills to their Afghan coun-                 feel and take ownership over results. An important
     terparts (including through training and coaching                 lesson is that keeping communities informed and
     provided to Afghan nationals). Other benefits are                 allowing them influence over decisions is key to
     that Afghans may be able to a) access areas where                 successful implementation and monitoring.
     it may be too dangerous for foreign nationals; b)
     provide a more effective means of communicating              21.	 Use Multiple Layers of Accountability. There is
     directly with contractors and help translate require-             a need for layers of accountability, given that there
     ments to contractors and subcontractors; and c)                   is not going to be one perfect solution for conduct-
     serve as translators, as well as interpreters of the              ing monitoring, tracking accountability, and check-
     local social, cultural, and political environment.                ing the quality of services provided. An example of
     There is however the potential risk that they will                a successful program involved hiring local religious
     be subject to manipulation or intimidation by the                 leaders who were paid only after others in commu-
     Taliban and others, or to difficult conflicts of inter-           nity signed off that the leaders had completed the
     est at the local level. There may also be reluctance              promised work. Along these same lines, it is always
     to direct contractors to redo work if the quality is              desirable to have the district development authority
     found to be substandard, or to tell foreign bosses of             or community authority confirm that projects have
     problems they encounter onsite. They also may not                 been completed.
     be familiar with or understand the standards they
     are required to implement and enforce. These risks           22.	 Reliable Data. One of the challenges in being able
     can be mitigated by investing in Afghan nationals’                to measure program success is the ability to col-
     training, mentoring, and partnerships, and backing                lect reliable data. Data collection in conflict zones
     up supervision with other forms of remote monitor-                is incredibly expensive and, more importantly,
     ing and management. On the other hand, Afghan                     often puts lives at risk. There must be a balance
     nationals often feel a greater sense of ownership                 between the need for obtaining the best data
     over development activities, understand that the                  against the risks to colleagues and beneficiaries.
     funds are intended to make their lives better, and                In many situations, technology can help mitigate
     are frustrated when they see waste or corruption.                 personal risks, but it is unlikely to overcome all of
                                                                       the challenges of the difficult environment. Most
20.	 Personal Relationships and Local Engagement                       non-governmental organizations use a patchwork
     Are Important. Working effectively in Afghani-                    of different sources of information that they can
     stan requires developing personal and professional                triangulate. Conducting monitoring and evaluation
     relationships with the Afghan people at the local                 often requires asking sensitive questions, perhaps
     and community level. In Afghanistan personal                      taking photographs or bringing in outsiders to con-
     relationships matter and developing these personal                duct evaluations, all of which could be construed
     relationships—by spending the time to sit down                    as intelligence gathering or spying. It is possible
     and “drink tea” with individual Afghans—is neces-                 for aid organizations to overcome such suspicions




                                                                                                             June 18, 2014 | 12
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




     and even to negotiate concessions, however, this                  used to figure out what is going wrong and how to
     often requires a significant investment in building               improve projects.
     relationships and trust with not only the community
     but also armed insurgents. In addition, data can
     become highly politicized given the political nature         Recommendations for Going Forward
     of the policy objectives and the need to show prog-          Speakers offered several ideas for improving program
     ress in order to justify future funding. Data should,        implementation, monitoring, and oversight in Afghani-
     ultimately, facilitate decision making and focus on          stan and other conflict areas. This section summarizes
     those objectives that a decision maker cares about.          those suggestions.
     This requires a deliberate discussion and agreement
     between decision makers and data collection plan-            24.	 Multi-tiered Approach to Gathering Data.
     ners on what truly matters.                                       Monitoring can benefit from taking a multi-tiered
                                                                       approach to gathering and analyzing data from a
23.	 Evaluations. Monitoring and evaluation are two                    host of stakeholders and then triangulating that
     methods of measurement that are sometimes con-                    data so better decisions can be made. Five tiers of
     sidered synonymous but are in fact distinct. They                 monitoring actors were described.
     can complement each other, but neither can serve                  •	 U.S. government actors—including the National
     as a substitute for the other. While monitoring can                   Geospatial-Intelligence Agency, Inspectors
     tell us whether a program was implemented cor-                        General, and U.S. Government Accountabil-
     rectly, an evaluation measures outcomes that can                      ity Office—provide data and evaluations and
     tell us whether the program was effective. Moni-                      monitoring that can be used to help change and
     toring tracks the inputs and outputs of a program                     adapt programming.
     or project, such as the number of beneficiaries or                •	 Implementing partners, including Afghan
     schools built. Monitoring outputs are not usually                     government ministries and local government
     sufficient for measuring the outcome or effective-                    officials, are a rich source of data. The Minis-
     ness of a project but outputs are often used for this                 try of Public Health, for example, has a Health
     purpose because they are easier to quantify and,                      Management Information System that provides
     therefore, measure. Outcomes should reflect the                       a wealth of data that can be used to evaluate
     objectives of the program. Objectives may include                     health programming.
     development-specific indicators related to quality of             •	 Other donors can be a rich resource by sharing
     life or political indicators such as enhanced percep-                 what they are hearing from their implementing
     tions of government legitimacy. While some may be-                    partners and other people about what is going
     lieve that impact evaluations are a luxury in fragile                 on in a particular district or province.
     states, impact evaluations are even more necessary                •	 Civil society organizations and the Afghan
     in places like Afghanistan than they are elsewhere                    people are an incredibly rich and increasingly
     because the cost of failure in Afghanistan is higher.                 important source. The more stakeholders can
     Impact evaluations often take a long time, and                        give voice to the Afghans to help them figure out
     program implementers and others do not want to                        what is going on, the better it will be for both
     wait years to learn about the outcome of a program.                   development results and for accountability.
     Nevertheless, evaluations are critical because they               •	 Independent monitoring or third party moni-
     can provide a very important institution-building                     tors, which have been used for quite a few years
     function by helping promote evidence-based policy                     in Afghanistan, are also an important source.
     making. More impact evaluations are needed; they
     are not very useful in isolation. Evaluations from a         25.	 Avoid Duplication of Effort. A considerable du-
     variety of programs need to be linked to policy deci-             plication of effort occurs across individual organiza-
     sions. Together with monitoring, evaluations can be               tions and among aid organizations. Organizations




                                                                                                             June 18, 2014 | 13
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




     need to conduct appropriate analyses to start to                  particular development activities might be transfer-
     understand, in a strategic sense, if and how each of              rable to other settings. For instance, it might be that
     their programs differs from their other programs                  a particular effort in Afghanistan was innovative
     and the programs of others.                                       and worthy of future study and emulation, although
                                                                       it failed to achieve its objectives in an environment
26.	 Capture and Share Lessons Learned. There is                       that simply proved too hostile. Many projects would
     a need to share lessons learned and best practices                fail in Afghanistan that might do very well under
     both vertically within organizations and horizon-                 less formative conditions. Assessments should also
     tally among organizations. Often lessons learned                  always include the relative history of development
     and best practices are discussed only superficially               projects and the mitigating factors beyond the con-
     and may reflect an organization’s selling of its brand            trol of those in the field. For example, simply listing
     rather than an in-depth exposition of the pluses and              the names and tenures of the chain of key decision
     minuses of particular techniques and approaches.                  makers and responsible officers for each project
     Organizations have to go a step beyond sharing                    being studied over several years would immedi-
     practices and have real discussions about what                    ately make clear that rapid turnover of personnel in
     practices have worked, where they have worked,                    Afghanistan likely complicated all field implementa-
     why they have worked, and whether they are trans-                 tion. If personnel turnover did prove in almost every
     ferable from one province or village to another,                  study to be an important obstacle to achieving pro-
     and what practices have not worked. In addition,                  gram goals, then perhaps a study of just that topic,
     aid organizations should communicate more read-                   the impact of turnover on development projects,
     ily with each other about the problems they have                  should be undertaken. Other elements for consid-
     experienced with implementing partners. In one                    eration include unanticipated changes in levels of
     instance, an aid organization official discovered that            funding, shifts in military operational priorities,
     companies, about to be given multimillion dollar                  declines in security, and the loss of Afghan partner-
     contracts, did not exist. In another case, it was dis-            ship and commitment. To use a common metaphor,
     covered that multiple aid organizations were paying               we should be cautious before condemning farmers
     for the construction of the same facilities. When                 for failing to achieve high yields for crops that they
     an organization encounters these types of prob-                   are told to plant in the midst of a desert.
     lems, it very rarely will share the information with
     another agency or organization, or even with its             28.	 Form Professional Partnerships and Collabo-
     own government. Organizations need to capture as                  rate. Implementers and overseers should form pro-
     much information as possible about the difficulties               fessional partnerships and collaborate in appropri-
     they have experienced with particular partners and                ate ways with each other. There are some very strict
     share that information so everyone can be better                  boundaries that, if crossed, may compromise objec-
     informed going forward. Unless organizations make                 tivity. Still, the ideal relationship, between the pol-
     more informed decisions about their partnerships,                 icy maker and the implementer, should be to view
     they are not actually going to be changing the risk               oversight and investigative agencies as vital mem-
     environment that they are working in.                             bers of the government team. Development work in
                                                                       conflict zones can be risky business, subject to huge
27.	 Assessments Should Incorporate Context and                        errors in decision making and implementation, and
     Mitigating Factors. Development program as-                       vulnerable to corruption. If this is openly, candidly,
     sessments must try to capture and incorporate the                 and frequently acknowledged by implementers and
     policy, strategic, temporal, and resource context                 monitors alike, the channels of communication
     in which the programs were decided and imple-                     between the two groups will improve. An upfront
     mented. Without this, it is often too difficult to fairly         recognition of this by oversight bodies will encour-
     judge impact or to draw conclusions as to whether                 age implementers to be more candid about their




                                                                                                             June 18, 2014 | 14
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




     program shortfalls. Equally important is an explicit               grams. The Afghan media has certainly helped build
     recognition by leaders in the development field that               a sense of nation far more than any other develop-
     rigorous, tough, sophisticated oversight is critical to            ment program. Projects to help restore the Kabul
     maintaining mission credibility on the home front                  Museum and the Herat Citadel, or that supported
     and to organizational learning. In addition, any and               the Afghan National Institute of Music, are prob-
     all oversight help that can be offered should be wel-              ably more helpful, on a comparative cost basis, in
     comed by U.S. agencies and military commanders.                    strengthening the unity and confidence of the Af-
     The various department and agency Inspectors Gen-                  ghan people, than the deployment of an additional
     eral personnel on the ground should be invited into                battalion of U.S. Army infantry. Another example
     relevant planning and problem solving activities in                is the significant improvement in public finance
     military headquarters and embassies, asked when                    management achieved by the Afghan government,
     appropriate to conduct analysis useful to the imple-               particularly the Ministry of Public Health and the
     menting offices, and encouraged to exchange views                  Ministry of Finance. Under the leadership of the
     on how program efficiencies and effectiveness can                  Finance Ministry, the country’s Open Budget Index
     be measured. In return, those involved in monitor-                 score increased from 8 points in 2008 to 59 points in
     ing should ensure that they include among their first              2012, demonstrating the government’s commitment
     principles a commitment to provide early warning                   to budget transparency and accountability.4 In the
     to implementers when it appears a program is going                 time remaining before the troop withdrawals are
     awry. Such an approach can cause dilemmas, but                     completed, organizations should look for examples
     the point is to be good stewards of taxpayer money                 of what has worked and document them. If they
     and to promote organizational learning.                            choose to only write about failures, their successors
                                                                        may become unnecessarily risk adverse.
29.	 Undertake Holistic and Systemic Evaluations.
     As the war in Afghanistan draws to a close and or-
     ganizations still have access and expertise on the
     ground, they should consider undertaking more
     holistic and systemic evaluations. Were the ambi-
     tious goals proclaimed at the outset of the cam-
     paign achieved? Are the gains to date sustainable?
                                                                  4	    The Open Budget Survey measures the state of budget
     Organizations should examine accomplishments
                                                                       transparency, participation, and oversight in countries
     also in broad functional areas, such as counter
                                                                       around the world. Afghanistan “has made steady and
     narcotics, finance, border control, and women’s
                                                                       impressive progress toward greater budget transparency
     rights. Diplomats, development specialists, and
                                                                       since [2008] — more than doubling its OBI [Open Budget
     soldiers will find such studies, if they are well writ-
                                                                       Index] scores in each subsequent round for a total increase
     ten, priceless as they prepare for the next foreign
                                                                       of 51 points. In 2010 the Afghan government made a spe-
     intervention of any scale.
                                                                       cific commitment to reach a target OBI score of at least 40,
                                                                       which its 2012 score of 59 far surpassed. In exploring the
30.	 Report on Successful Programs. Stakeholders
                                                                       factors that led the Afghan government to shift its focus
     should study, analyze, and report on some of the
                                                                       toward budget transparency and achieve such impressive
     lesser known and, in many cases, low cost pro-
                                                                       results, the political will of the leadership of the Ministry
     grams and projects in Afghanistan that have paid
                                                                       of Finance, as well as the government’s desire to improve
     huge dividends. To illustrate, the U.S. government’s
                                                                       its international image, again emerge as key factors.”
     support of the Afghan media, on a dollar for dol-
                                                                       Source: International Budget Partnership, Open Budget
     lar basis, has had far more impact on improving
                                                                       Survey 2012. Also cited was The World Bank Group report,
     government accountability than has the hundreds of
                                                                       Afghanistan: Public Financial Management and Account-
     millions of dollars poured into Rule of Law pro-
                                                                       ability Assessment, August 2013, Report No. 80996-AF.




                                                                                                               June 18, 2014 | 15
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Observations
As coalition forces continue to drawdown in Afghani-              through an extensive array of programs and analyti-
stan, international aid agencies and other donors will            cal work, supported by USIP’s office in Kabul. USIP
face increasing challenges and constraints on their               is working in close partnership with a number of U.S.
ability to effectively manage and monitor reconstruc-             government agencies, and looks forward to continuing
tion projects. Yet effective management, monitoring,              and enhancing such partnerships. Unlike some other
evaluation, and other oversight mechanisms are critical           actors, USIP expects to maintain and, if anything, further
to promote greater accountability and minimize risks              increase its engagement with Afghanistan during and
of waste, fraud, and abuse. Inadequate management,                beyond the current transition, including by working with
monitoring, and evaluation limit our ability to assess the        the new post-election Afghan government expected to
impact of reconstruction programs, and prevent ongo-              come into office later this year. Like other organizations,
ing adaptation and reform.                                        USIP must address security issues and other constraints
                                                                  that affect program management and oversight in Af-
The SIGAR mission is to promote economy and efficien-             ghanistan, and has benefited from the extensive discus-
cy of U.S.-funded reconstruction programs in Afghani-             sions at this symposium. USIP looks forward to con-
stan and to detect and deter, waste, fraud and abuse by           tinuing to search for good-practice solutions, including
conducting independent, objective, and strategic audits,          through piloting some of them in its own programs.
inspections, and investigations. A common thread in SI-
GAR’s work is the failure of U.S. agencies and program            Symposium participants raised and discussed important
implementers to conduct effective management and                  issues that are part of an ongoing and broader dialogue
monitoring of reconstruction projects and programs.               about the role of the United States, donor organizations,
SIGAR wants to work with these parties to identify                others in the international community, and Afghan gov-
best practices and lessons learned in order to help               ernment, national, and community organizations in the
them be more effective and accountable for taxpayers’             reconstruction effort. SIGAR and USIP want to continue
money. SIGAR also wants to draw on their experience               the dialogue to identify the best and most effective
in remote management and monitoring to help inform                practices, methods, techniques, and technologies to ef-
the inspector general community on methods and tech-              ficiently and effectively establish and sustain monitoring
niques that may translate into meeting the challenges of          and oversight frameworks for development and recon-
conducting oversight in insecure environments.                    struction programs in Afghanistan and other insecure
                                                                  environments. SIGAR and USIP will be exploring other
In Afghanistan, USIP is pursuing its global objective of          ways to continue this dialogue and look forward to con-
ending violent conflict and promoting enduring peace              tinuing this work with other interested parties.




                                                                                                             June 18, 2014 | 16
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Appendix A. Panel on “The Role of Oversight”
A panel with the Special Inspector General for Afghani-                that can be examined at different points in time by
stan Reconstruction, a Managing Director from the U.S.                 more objective standards.
Government Accountability Office, and the Inspectors
General from the Department of State, Department of
Defense, and U.S. Agency for International Develop-               Approaches for Mitigating Risks
ment, was scheduled for the second day of the sympo-              To address these risks, implementing agencies have a
sium. Unfortunately, the second day of the symposium              wide variety of mitigating strategies at their disposal.
was cancelled due to inclement weather. Following the             •	 Several risk mitigation measures can be implement-
symposium, the panelists provided SIGAR with their                    ed early on in the project process to help improve
prepared statements for the panel. Below is a summary                 development efforts and protect U.S. funds.
of what the panelists intended to discuss.                            -- More intensive focus on proper planning and
                                                                          implementation of program efforts by agencies
                                                                          can reduce risks of waste, fraud, and abuse
Programmatic and External Risks to Aid                                    upfront.
Programs in Insecure Environments                                     -- Better application of program management
Assistance programs in fragile and failed states face                     principles could help ensure that project activi-
many challenges and corresponding risks.                                  ties support intended goals and are sustainable.
•	 Insecurity, instability, weak governance, and high lev-            -- Improved training for and deployment of con-
    els of corruption make it challenging to implement                    tract and procurement personnel could improve
    programs and conduct program monitoring activi-                       choices about procurement mechanisms and
    ties. Contracting and grants officers’ representatives,               help increase contractor compliance with the
    for example, may not be able to monitor implementa-                   terms of agreements.
    tion of awards through on-site inspections.                       -- Use of some procurement mechanisms could
•	 Pressures to deliver rapid results to bolster stability                shift cost risks to implementers.
    often drive the pace of programming and spending,                 -- Leveraging local employees’ in-depth knowl-
    which may exceed planning and oversight capacity.                     edge of the operating context can enhance
•	 Weak civil society and government bodies paired                        implementing agencies’ ability to navigate and
    with a heavy initial focus on stabilization and                       interpret local systems.
    reconstruction activities can reduce the sustain-                 -- Establishing financial reporting systems with
    ability of projects.                                                  strong internal controls, limiting cash transac-
•	 U.S. government employee assignments in insecure                       tions, and strengthening local audit capacity
    environments are often limited to one year or less,                   through vetting and quality control checks can
    resulting in higher staff turnover and limitations in                 prevent funds from being misused or siphoned
    institutional knowledge.                                              off by corrupt actors.
•	 Increased emphasis on implementing programs
    through local systems (e.g., Afghan First, Local              •	   Development efforts focused on strengthening the
    Solutions, government-to-government) increases                     accountability environment of the host country will
    risks in many settings. These risks are amplified by               help mitigate risks related to corruption and weak
    weak accountability systems, poor governance, and                  governance.
    reduced ability to evaluate program results, all of                -- Programs and initiatives to improve the inde-
    which are common conditions in insecure settings.                      pendence and professionalism of host country
•	 Results of “soft projects” with less tangible deliv-                    law enforcement, prosecutors, and courts, will
    erables (e.g., education, health, democracy) can be                    help create reliable counterparts for U.S. au-
    more difficult to verify than infrastructure projects                  thorities tasked with countering corruption.




                                                                                                             June 18, 2014 | 17
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




     --   Establishing anti-fraud hotlines and anti-corrup-
                                                          •	      Increased use of Afghan and foreign service nation-
          tion programs will reinforce indigenous over-               als will provide agencies with better knowledge
          sight institutions.                                         of the local environment and assist in the use of
     --   Implementing agencies can work with new                     surveys or other instruments to examine project
          implementing partners to build their capacity               activities, outputs, and outcomes.
          to properly manage and administer assistance            •	 Technologies such as satellite imagery and GPS-
          projects and funds, ultimately improving their              enabled smart phones provide one possible way for
          ability to manage challenges that emerge during             agencies to examine project activities remotely.
          the implementation process.                             •	 Utilizing assets of the U.S. military and intelligence
                                                                      community that already have access to a project
•	   Diligently reviewing information provided by                     site to provide project verification through direct
     implementing partners and properly controlling the               observation or by other effective means, such as
     reporting requirements will help to identify areas at            imagery from drones already overflying an area or
     risk for waste, fraud, and abuse.                                military units utilizing GPS-enable digital cameras
     -- Assigning greater priority to project monitor-                to take photos of a site.
          ing and evaluation could help agency managers
          identify problem areas sooner.
     -- Careful review of documentation provided by               Implications for the Oversight Community
          implementing partners will often reveal discrep-        The challenges and risks associated with insecure envi-
          ancies that are indicative of the lack of quality       ronments have several impacts on the oversight com-
          of those reports. For example, some reports             munity’s mission to detect and prevent waste, fraud,
          may use the same photographs for different              and abuse.
          construction projects, or text that cannot be           •	 Diminishing oversight access to development proj-
          true based on other information in that same                ects and increasing costs for alternative oversight
          report or in others.                                        measures will push the oversight community to
     -- Ensuring that cooperative agreements and                      prioritize its resources to focus on high risk areas
          contracts include provisions that guarantee                 that are most in need of oversight.
          U.S. government agencies access to project              •	 Lack of oversight access to projects may cause the
          records would improve the ability of agencies               oversight community to limit its scope of work or
          to monitor and evaluate the implementation of               produce products with reduced levels of assurance.
          the project, as well as to detect irregularities in         -- Security concerns can impede travel or make
          the records.                                                    it cost prohibitive, thereby limiting the ability
     -- Maximize information sharing regarding risks                      of agencies to access programs and projects to
          by reinforcing reporting systems and coordina-                  conduct oversight.
          tion among oversight bodies.                                -- The oversight community will need to explore
                                                                          alternative standards of evidence and methods
                                                                          of gathering data, and weigh the pros and cons
Remote Management and Monitoring                                          of alternative remote monitoring strategies. For
When the operating environment restricts physical ac-                     example, contracting third parties to perform
cess to programs and projects, alternative strategies to                  fieldwork may improve access to insecure sites,
provide timely, relevant, and useful oversight products                   but it may be overly costly and require exten-
could be considered.                                                      sive vetting of third party employees.
•	 Using more third parties and contractors, such as              •	 The oversight community should make these limita-
    local/international audit and accounting firms, can               tions transparent to Congress and implementing
    overcome some of the limitations caused by travel                 agencies.
    restrictions due to insecurity.




                                                                                                             June 18, 2014 | 18
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




     --    The oversight community needs to provide                         country. This hinders effective coordination and
          clear explanations regarding the strengths and                    cooperation. In order to make efficient use of
          limitations of the data collected and ensure                      movements outside of Kabul, it would be good
          policymakers and the public are well-informed                     to know what other U.S. funded activities may
          about these constraints so that they can make                     be in those locations. For example, an agency
          their own judgments on the information provid-                    attempting to plan a site inspection of schools
          ed. For example, imaging may provide informa-                     constructed in a province could coordinate its
          tion about infrastructure projects and whether                    trip with another agency that is arranging their
          they are making progress, but without physical                    own site inspection of police buildings in the
          access to projects sites and testing of materials,                same province.
          the images cannot tell us if the materials being             --   The Southwest Asia Planning Group is an
          used meet contract specifications.                                example of how the oversight community can
     --   The oversight community needs to be proac-                        coordinate and work together, but its work
          tive in managing the expectations of Congress                     would be enhanced if there were more com-
          and their agencies about the level and limits of                  plete knowledge of all U.S.-funded efforts and
          oversight that can be achieved in the increasing                  their locations in Afghanistan.
          risk environment.                                            --   Members of the oversight community and
                                                                            implementing agencies should strive to develop
•	   Increased coordination within the oversight com-                       a culture of sharing best practices and seeking
     munity, and between the oversight community and                        opportunities to institutionalize inter-agency
     implementing agencies, will enhance cooperation                        cooperation.
     and reduce duplicate efforts.
     -- Currently, implementing and oversight agen-               •	   As the oversight community continues to operate in
         cies operating in Afghanistan do not have                     insecure environments, it should look to use its past
         sufficient visibility over the various activities             experiences to develop best practices to prepare for
         and operations taking place throughout the                    future overseas contingency operations.




                                                                                                             June 18, 2014 | 19
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Appendix B. Pertinent Readings
Beath, Andrew, and Fotini Christia, and Ruben Enikolopov.         Norman, Bryony. “Monitoring and Accountability Practices for
“Randomized Impact Evaluation of Afghanistan’s National           Remotely Managed Projects Implemented in Volatile Operat-
Solidarity Programme.” Washington, DC: World Bank, July 1,        ing Environments.” Tearfund, 2012.
2013.
                                                                  Overseas Development Institute. “Humanitarian Security Man-
———. “Winning Hearts and Minds through Development? Evi-          agement.” Humanitarian Practice Network (HPN), Humani-
dence from a Field Experiment in Afghanistan.” Washington,        tarian Exchange 47, June 2010.
DC: World Bank, 2012.
                                                                  Oxfam International, Merlin. “Remote Programming Modali-
Connable, Ben. “Embracing the Fog of War: Assessment and          ties in Somalia Discussion Paper.” Somalia NGO Consortium,
Metrics in Counterinsurgency.” Santa Monica: RAND Corpora-        January 2009.
tion, 2012.
                                                                  Pam, Jeremiah. “Reinforcing Treasury’s Strategic Roles in
———. “Leveraging Development Aid to Address Root Causes           International Affairs and National Security: Addressing Inter-
in Counterinsurgency: Balancing Theory and Practice in ‘Hold’     national Finance Crises, Combating Illicit Finance, Strength-
and ‘Build’.” Santa Monica: RAND Corporation, February 2013.      ening Public Finance Institutions.” Washington, DC: United
                                                                  States Institute of Peace, September 8, 2009.
Egeland, Jan, and Adele Harmer, and Abby Stoddard. “To Stay
and Deliver: Good Practice for Humanitarians in Complex           Schreter, Lisa, and Adele Harmer. “Delivering Aid in Highly
Security Environments.” New York: United Nations, Office for      Insecure Environments: A Critical Review of the Literature,
the Coordination of Humanitarian Affairs (OCHA), Policy and       2007-2012.” London: Humanitarian Outcomes Ltd., February
Studies Series, 2011.                                             18, 2013.

Eikenberry, Karl. “The Limits of Counterinsurgency Doctrine       Sequeira, Sandra, and Justin Grimmer, and Andrew Beath. “A
in Afghanistan.” Foreign Affairs, August 12, 2013.                Prospective Evaluation of Afghanistan’s National Emergency
                                                                  Rural Roads Project.” New York: World Bank, April 6, 2008.
Fishstein, Paul, and Andrew Wilder, “Winning Hearts and
Minds? Examining the Relationship between Aid and Security        Sherman, Jake. “Survey of the United States Government’s Ar-
in Afghanistan,” Boston: Feinstein International Center, Janu-    rangements for Monitoring and Evaluating Support to Security
ary 2012.                                                         Sector Reform.” London: Saferworld, March 31, 2009.

Hansen, Greg. “Series of Briefing Papers on NGOs’ and Others’     SIGAR. National Geospatial-Intelligence Agency Analysis
Humanitarian Operational Modalities in Iraq.” NGO Coordina-       on Afghanistan Infrastructure and Security Cartography
tion Committee for Iraq, January 2008.                            System. SIGAR Alert-13-1. January 29, 2013.

Jackson, Ashley, and Abdi Aynte. “Talking to the Other Side:      ———. Health Services in Afghanistan: USAID Continues
Humanitarian Negotiations with Al-Shabaab in Somalia.” Lon-       Providing Millions of Dollars to the Ministry of Public
don: Overseas Development Institute, December 2013.               Health despite the Risk of Misuse of Funds. SIGAR Au-
                                                                  dit-13-7. September 5, 2013.
Jackson, Ashley, and Antonio Giustozzi. “Talking to the Other
Side: Taliban Perspectives on Aid and Development Work            ———. Oversight Access Inquiry Letter to Department of De-
in Afghanistan.” London: Overseas Development Institute,          fense, Department of State and U.S. Agency for International
December 2012.                                                    Development. SIGAR 14-4-SP. October 10, 2013.

Jackson, Ashley, and Simone Haysom. “The Search for Com-          ———. Comprehensive Risk Assessments of MOD and MOI
mon Ground: Civil-Military Relations in Afghanistan, 2002-13.”    Financial Management Capacity Could Improve Oversight
London: Overseas Development Institute, May 2013.                 of Over $4 Billion in Direct Assistance Funding. SIGAR 14-
                                                                  12-SP. December 3, 2013.




                                                                                                             June 18, 2014 | 20
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




———. Geospatial Fact Sheet: Oversight Access for Selected         ———. Performance Framework and Better Management
U.S. Army Corps of Engineers Projects and the Kajaki Dam          of Resources Needed for the Ministry of Defense Advisors
Project. SIGAR 14-28-SP. January 22, 2014.                        Program. DODIG-2013-005. October 5, 2012.

———. Direct Assistance: USAID Has Taken Positive Ac-              ———. Assessment of U.S. Government and Coalition Ef-
tion to Assess Afghan Ministries’ Ability to Manage Donor         forts to Train, Equip, and Advise the Afghan Border Police.
Funds, but Concerns Remain. SIGAR 14-32-AR. January 30,           DODIG-2013-081. May 24, 2013.
2014.
                                                                  U.S. Department of State, Office of the Inspector General.
Stoddard, Abby, and Adele Harmer, and Jean Renouf. “Once          Performance Evaluation of Palestinian Authority Security
Removed: Lessons and Challenges in Remote Management              Forces Infrastructure Construction Projects in the West
of Humanitarian Operations for Insecure Areas.” Prepared          Bank. MERO-I-11-03. March 31, 2011.
for Humanitarian Outcomes for the Center on International
Cooperation, February 25, 2010.                                   ———. Audit of the U.S. Mission Iraq Staffing Process. AUD-
                                                                  MERO-13-33. August 31, 2013.
Strand, Arne. “Afghanistan: Demanding Security Environment
Requires Innovative Risk Management and Mitigation of Local       ———. Audit of the Bureau of International Narcotics and
Aid Delivery.” London: The Royal Institute of International       Law Enforcement Affairs Corrections System Support Pro-
Affairs, May 2014.                                                gram in Afghanistan. AUDMERO-13-37. September 30, 2013.

U.S. Agency for International Development, Office of the          U.S. Government Accountability Office. Afghanistan: USAID
Inspector General. Review of USAID/Afghanistan’s Afghan           Oversight of Assistance Funds and Programs. GAO-12-802T.
Civilian Assistance Program. F-306-12-004-P. August 31, 2011.     June 6, 2012.

———. Audit of USAID/Afghanistan’s On-Budget Funding               ———. Afghanistan Development: Agencies Could Benefit
Assistance to the Ministry of Public Health in Support of the     from a Shared and More Comprehensive Database on U.S.
Partnership Contracts for Health Services Program. F-306-         Efforts. GAO-13-34. November 7, 2012.
11-004-P. September 29, 2011.
                                                                  ———. Afghanistan: Key Oversight Issues. GAO-13-218SP.
———. Review of USAID/Afghanistan’s Monitoring and Eval-           February 11, 2013.
uation System. F-306-12-002-S. September 26, 2012.
                                                                  United States Institute of Peace. Dziedzic, Michael, and Dr.
———. Audit of USAID/Pakistan’s Independent Monitoring             Barbara Sotirin, and Col. John Agoglia, editors. “Measuring
and Evaluation Program [Revised]. G-391-13-003-P. October         Progress in Conflict Environments (MPICE).” Washington, DC:
28, 2013.                                                         United States Institute of Peace, July 1, 2010.

———. Audit of USAID/Pakistan’s Government-to-Govern-              Van Stolk, Christian, and Tom Ling, Anais Reding, and Matt
ment Assistance Program. G-391-14-002-P. December 20,             Bassford. “Monitoring and Evaluation in Stabilisation Inter-
2013.                                                             ventions: Reviewing the State of the Art and Suggesting Ways
                                                                  Forward.” Santa Monica: RAND Corporation, 2011.
U.S. Department of Defense, Office of the Inspector General.
Assessment of Planning for Transitioning the Security As-         Zyck, Steven. “Remote Control Project Management in Inse-
sistance Mission in Iraq from Department of Defense to De-        cure Environments.” The Civil-Military Fusion Centre, Septem-
partment of State Authority. SPO-2011-008. August 25, 2011.       ber 2012.

———. Assessment of U.S. Government and Coalition Efforts
to Develop the Afghan Local Police. DoDIG-2012-109. July 9,
2012.




                                                                                                             June 18, 2014 | 21
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




Appendix C. List of Participants

 Participant               Organization                                        Participant                Organization
 Haseeb        Ahmed       SIGAR                                               John          Daley        U.S. Army Corps of Engineers
 Josh          Albert      U.S. Agency for International Development           Maura         Danehey      U.S. Department of State
 Richard       Albright    United States Institute of Peace                    Jeane         Davis        U.S. Agency for International Development
 Gene          Aloise      SIGAR                                               Ben           Edwards      U.S. Agency for International Development
                           U.S. Agency for International Development Office                               Stanford University, The Freeman Spogli Institute
 Daniel        Altmsan                                                         Karl          Eikenberry
                           of the Inspector General                                                       for International Studies
 Abid          Amiri       Embassy of Afghanistan                              Leslie        Elliott      United Nations World Food Program
 John          Arlington   SIGAR                                               Dale          Erikson      National Defense University
 Pauline       Baker       Fund for Peace                                      Elizabeth     Field        SIGAR
                           U.S. Department of State Bureau of International    Dean          Fischer      U.S. Department of State
 David         Bates
                           Narcotics and Law Enforcement                       Joseph        Fontanella   U.S. Army Geospatial Center
 Petter        Bauck       Norwegian Agency for Development Cooperation                                   U.S. Department of State Bureau of International
                                                                               Franklin      Frey
 Gregory       Bauer       SIGAR                                                                          Narcotics and Law Enforcement
 Andrew        Beath       The World Bank                                      Jerome        Gallagher    U.S. Agency for International Development
 David         Becker      National Defense University                                                    U.S. Department of State Bureau of International
                                                                               Ed            Gesio
 Ahmad                     Independent Joint Anti-Corruption Monitoring and                               Narcotics and Law Enforcement
               Behroz
 Rashed                    Evaluation Committee                                Dominick      Gibson       SIGAR
 David         Bernet      U.S. Department of State                                                       U.S. Department of State Bureau of International
                                                                               Sharayah      Gilbert
 Michael       Bindell     SIGAR                                                                          Narcotics and Law Enforcement
 Jarrett       Blanc       U.S. Department of State                            Matt          Golden       U.S. Department of State
 Mia           Bonarski    SIGAR                                               John          Goodman      SIGAR
 Margaret      Bond        SIGAR                                               Eugene        Gray         SIGAR
 Luke          Bostian     Aga Khan Foundation USA                             William       Hammink      U.S. Agency for International Development
 Charles       Botwright   SIGAR                                               Ryan          Heger        SIGAR
                           U.S. Department of State Bureau of International    Jeff          Helsing      United States Institute of Peace
 Brendan       Boundy
                           Narcotics and Law Enforcement                       Amb. John     Herbst       National Defense University
 Jennica       Bramble     U.S. Agency for International Development           Matthew       Hermerding   U.S. Agency for International Development
 Terry         Breese      U.S. Department of State                            Melissa       Hermes       SIGAR
 Joel          Brinkley    SIGAR                                               Nicolaus      Heun         SIGAR
 Robyn         Broughton   U.S. Agency for International Development           Emily         Horin        United States Institute of Peace
 Jeremy        Brown       SIGAR                                               Ashley        Jackson      Overseas Development Institute
 Victoria      Butler      SIGAR                                               Mirza         Jahani       Aga Khan Foundation USA
 Kathleen      Campbell    U.S. Agency for International Development           Larry         Junek        Government Accountability Office
 Jonathan      Carpenter   U.S. Department of State                                                       U.S. Agency for International Development Office
                                                                               David         Kahrmann
 Bernie        Carreau     National Defense University                                                    of Afghanistan and Pakistan Affairs
 Tara          Chapman     SIGAR                                               Hynek         Kalkus       Government Accountability Office
                           U.S. Department of Defense Office of the            Michael       Keating      Asia Programme, Chatham House
 Michael       Child
                           Inspector General                                   Jennifer      Keister      Cato Institute
 Ton           Cholst      The World Bank                                      Sarapech      Keo          SIGAR
 Jerry         Clark       SIGAR                                                                          U.S. Department of Defense Office of the
                                                                               David         King
 Ryan          Coles       SIGAR                                                                          Inspector General
 Ben           Connable    Rand Corporation                                                               U.S. Department of State Bureau of International
                                                                               Diana         Kramer
                                                                                                          Narcotics and Law Enforcement
 Foard         Copeland
                                                                               Alan          Kravitz      SIGAR
 Lisa          Corcoran    SIGAR
                                                                               Robert        Lamb         Center for Strategic and International Studies
                                                    Continued in next column
                                                                                                                                  Continued in next column




                                                                                                                                  June 18, 2014 | 22
Report on an International Symposium on Monitoring and Management in Insecure Environments: Applying Best Practices to Afghanistan




 Participant                  Organization                                       Participant                 Organization
 Mathew        Leslie         United Nations                                     Julien        Schopp        Interaction
                              U.S. Department of State Office of the Inspector   David         Schwendiman   SIGAR
 Jason         Loeffler
                              General                                                                        U.S. Agency for International Development Office
                                                                                 Jake          Sherman
 Kristin       Lord           United States Institute of Peace                                               of Transition Initiatives
 Christoff     Luehrs         National Defense University                        James         Smith         SIGAR
 Sarah         Maloney        SIGAR                                              Scott         Smith         United States Institute of Peace
 Colin         McIlreavy      Doctors Without Borders                                                        Special Inspector General for Afghanistan
                                                                                 John          Sopko
                              Independent Joint Anti-Corruption Monitoring and                               Reconstruction
 Grant         McLeod
                              Evaluation Committee                               Howard        Stickley      U.S. Army Corps of Engineers
 Matthew       Miller         SIGAR                                                                          New York University Center on International
                                                                                 Abby          Stoddard
 Jack          Mitchell       SIGAR                                                                          Cooperation
 Nargis        Nehan          Equality for Peace and Democracy                   Arne          Strand        Chr. Michelsen Institute
 Timothy       Nelson         SIGAR                                              Kevin         Streeter      SIGAR
 Jack          Nemceff II     U.S. Department of State                           Donovan       Strydom       U.S. Agency for International Development
                              U.S. Department of Defense Office of the           William       Taylor        United States Institute of Peace
 Stanley       Newell
                              Inspector General                                  Daniel        Tessler       SIGAR
 Tinh          Nguyen         SIGAR                                              Roger         Thomas        U.S. Army Corps of Engineers
 Sayre         Nyce           International Rescue Committee                                                 U.S. Department of State Office of the Special
                                                                                 Alan          Van Egmond
 Jeremy        Pam            The Urban Institute                                                            Representative for Afghanistan and Pakistan
 Melissa       Patsalides     U.S. Agency for International Development                                      U.S. Department of State Bureau of International
                                                                                 Alia          Waly
                                                                                                             Narcotics and Law Enforcement
 Monica        Pons Stalcup   U.S. Department of State
                                                                                 Hossai        Wardak        Equality for Peace and Democracy
 Russell       Porter         U.S. Agency for International Development
                                                                                 Adam          Weaver        SIGAR
 Jeanne        Pryor          U.S. Agency for International Development
                                                                                 Daniel        Weggeland     SIGAR
                              U.S. Department of State Bureau of International
 Jocelyn       Rafferty                                                          Natahn        White         National Defense University
                              Narcotics and Law Enforcement
 Anne          Ralte          International Relief and Development               Andrew        Wilder        United States Institute of Peace
                              U.S. Department of Defense Office of the           Melissa       Wilf          SIGAR
 Michael       Roark
                              Inspector General                                  Jenniffer     Wilson        SIGAR
 Farhad        Roien                                                             Joseph        Windrem       SIGAR
 Justin        Sandefur       Center for Global Development                      David         Wise          Government Accountability Office
 Emmett        Schneider      SIGAR                                              Sharon        Woods         SIGAR
                                                      Continued in next column   Meg           Young         U.S. Department of State




                                                                                                                                        June 18, 2014 | 23
